             Audit Report



Indirect Costs and Applicant Travel
Expenses Claimed by the Louisiana
 Disability Determination Services




       A-06-13-13070 | April 2014
MEMORANDUM


Date:      April 28, 2014                                                     Refer To:

To:        Sheila Everett
           Regional Commissioner
           Dallas
From:      Inspector General
Subject:   Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana Disability
           Determination Services (A-06-13-13070)

           The attached final report presents the results of our audit. Our objectives were to determine
           whether (1) indirect costs claimed for Federal Fiscal Years 2011 and 2012 were allowable and
           properly allocated and (2) applicant travel expenses were reasonable, properly authorized, and
           adequately supported.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment

           cc:
           Ann Robert, Acting Associate Commissioner for Disability Determinations
           Carla Krabbe, Associate Commissioner for Financial Policy and Operations
           Gary S. Hatcher, Senior Advisor for Records Management and Audit Liaison Staff
           Susan Sonnier, Secretary, Louisiana Department of Children and Family Services
           Chris Kirby, Director, Louisiana Disability Determination Services
Indirect Costs and Applicant Travel Expenses Claimed by the
Louisiana Disability Determination Services
A-06-13-13070
April 2014                                                               Office of Audit Report Summary

Objective                                 Our Findings

We initiated this review at the Dallas    LA-DCFS’ accounting system could not provide detailed
Regional Commissioner’s request.          information identifying specific indirect costs it allocated to
Our objectives were to determine          LA-DDS from its various components. Because of this limitation,
whether (1) indirect costs claimed for    we could not determine whether indirect costs were allowable or
Federal Fiscal Years (FY) 2011 and        properly allocated.
2012 were allowable and properly
allocated and (2) applicant travel        LA-DDS incorrectly charged approximately $170,000 in lump-sum
expenses were reasonable, properly        leave paid to terminating employees in FYs 2011 and 2012 as direct
authorized, and adequately supported.     administrative expense. These costs should have been allocated as
                                          general administrative expenses across all activities of the
Background                                governmental unit or component.

The Louisiana Disability                  LA-DDS properly authorized and adequately supported payments
Determination Services (LA-DDS) is a      to claimants for ordinary travel costs incurred to attend medical
component of the Louisiana                examinations or disability hearings. However, LA-DDS did not
Department of Children and Family         always properly authorize or adequately support unusual travel
Services (LA-DCFS). Each year,            expenses (taxi fares).
LA-DCFS prepares a Public
Assistance Cost Allocation Plan that      Our Recommendations
provides the cost allocation
methodology for the distribution of       We recommend that SSA:
support costs to the program
                                          1. Work with LA-DCFS to either simplify its cost allocation
components.
                                             methodology or modify its accounting system so it allows for
During FYs 2011 and 2012, SSA                identification of indirect costs allocated from each LA-DCFS
reimbursed LA-DDS approximately              component.
$76 million for administrative costs,
                                          2. Ensure LA-DDS correctly charges terminal leave payments.
including $8.5 million for LA-DCFS’
indirect costs and about $1 million for   3. Work with LA-DDS to remind employees of proper procedures
applicant travel expenses.                   for authorizing and supporting unusual travel expenses and
                                             determine whether it is cost-beneficial to pursue recovery of
                                             questionable taxi expenses.

                                          SSA agreed with our recommendations. LA-DCFS agreed with
                                          Recommendation 3. Also, while it concurred in-part with
                                          Recommendation 2, its described actions taken and planned are
                                          fully responsive to Recommendation 2. However, LA-DCFS
                                          disagreed with Recommendation 1.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Indirect Costs .............................................................................................................................2
           Payment of Unused Leave to Terminating Employees Charged Incorrectly ......................4
     Applicant Travel ........................................................................................................................4
           Payments for Taxi Fares ......................................................................................................5
Conclusions ......................................................................................................................................6
Recommendations ............................................................................................................................6
Agency Comments and OIG Response............................................................................................6
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Fiscal Year 2011 and 2012 Disability Determination Services Program Costs . B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Louisiana Department of Children and Family Services Comments.................. D-1
Appendix E – Major Contributors...............................................................................................E-1




Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)
ABBREVIATIONS
Act                  Social Security Act

C.F.R.               Code of Federal Regulations

DDS                  Disability Determination Services

DI                   Disability Insurance

FY                   Fiscal Year

LA-DCFS              Louisiana Department of Children and Family Services

LA-DDS               Louisiana Disability Determination Services

OIG                  Office of the Inspector General

OMB                  Office of Management and Budget

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SSI                  Supplemental Security Income

U.S.C.               United States Code




Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)
OBJECTIVE
We initiated this review at the Dallas Regional Commissioner’s request. Our objectives were to
determine whether (1) indirect costs claimed for Federal Fiscal Years (FY) 2011 and 2012 were
allowable and properly allocated and (2) applicant travel expenses were reasonable, properly
authorized, and adequately supported.

BACKGROUND
The Disability Insurance (DI) program was established in 1954 under Title II of the Social
Security Act (Act). 1 The DI program provides benefits to wage earners and their families in the
event the wage earner becomes disabled. In 1972, Congress enacted the Supplemental Security
Income (SSI) program under Title XVI of the Act. 2 The SSI program provides benefits to
financially needy individuals who are aged, blind, or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of claims under the DI and SSI programs. Disability determination services (DDS)
in each State perform disability determinations under both DI and SSI in accordance with
Federal statutes and regulations. 3 Each DDS is responsible for determining claimants’
disabilities and ensuring adequate evidence is available to support its determinations. SSA
reimburses DDSs for 100 percent of allowable expenditures up to their approved funding
authorization. At the end of each quarter of the Federal FY, each DDS submits a State Agency
Report of Obligations for SSA Disability Programs (Form SSA-4513) to account for program
disbursements and unliquidated obligations.

The Louisiana DDS (LA-DDS) is a component of the Louisiana Department of Children and
Family Services (LA-DCFS) and has area offices in Baton Rouge, Shreveport, and New Orleans,
Louisiana. LA-DCFS comprises program and support components. The program components
administer specific programs, such as LA-DDS. The support components provide administrative
services that support the program components, such as accounting, budgeting, and personnel.
LA-DCFS allocates costs to the program components they support as indirect costs. Each year,
LA-DCFS prepares a Public Assistance Cost Allocation Plan (Cost Allocation Plan) that
provides the cost allocation methodology for the distribution of support components’ costs to the
program components.

The Department of Health and Human Services is the cognizant Federal agency that reviews and
approves LA-DCFS’ indirect cost allocation plan. During FYs 2011 and 2012, SSA reimbursed
LA-DDS approximately $76 million for administrative costs, including $8.5 million for



1
    Social Security Amendments of 1954, Pub. L. 83-761, Title I, § 106, 68 Stat. 1052, 1079.
2
    Social Security Amendments of 1972, Pub. L. 92-603, Title III, § 301, 86 Stat. 1329, 1465.
3
 Social Security Act §§ 221 and 1633, 42 U.S.C. §§ 421 and 1383b; see also 20 C.F.R. §§ 404.1601 et seq. and
416.1001 et seq.



Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)                      1
LA-DCFS’ indirect costs and about $1 million for applicant travel expenses. For details about
our scope and methodology, see Appendix A.

RESULTS OF REVIEW
LA-DCFS’ accounting system could not identify specific indirect costs it allocated to LA-DDS
from its various components. Because of this limitation, we could not determine whether
indirect costs were allowable or properly allocated.

LA-DDS incorrectly charged approximately $170,000 in lump-sum leave paid to terminating
employees in FYs 2011 and 2012 as direct administrative expense. These costs should have
been allocated as general administrative expense across all activities of the governmental unit or
component.

LA-DDS properly authorized and adequately supported payments to claimants for ordinary
travel costs incurred to attend medical examinations or disability hearings. However, LA-DDS
did not always properly authorize or adequately support unusual travel expenses (taxi fares).

Indirect Costs
LA-DCFS could not identify specific indirect costs it allocated to LA-DDS from its various
components. LA-DCFS’ cost allocation plan described various allocation methodologies it
employed on a multi-step basis for hundreds of reporting categories summarized under seven
cost pool groupings. LA-DCFS officials stated the State programmed its accounting systems to
generate indirect cost accruals based on the methodology described in the cost allocation plan.
As indicated below, LA-DCFS allocated approximately $8.5 million in indirect costs to LA-DDS
in FYs 2011 and 2012:

                    Table 1: Indirect Costs LA-DCFS Allocated to LA-DDS
                         and Reported on Quarterly Form SSA-4513
                                            FY 2011                    FY 2012
                    st
                   1 Quarter               $1,209,203                   $934,271
                   2nd Quarter             $1,298,797                   $825,842
                   3rd Quarter               $256,704                   $960,780
                   4th Quarter             $1,318,358                 $1,743,332
                    Total                  $4,083,062                 $4,464,225

However, State officials explained that LA-DCFS’ accounting system did not allow for
identification of specific amounts allocated by each component. Officials informed us that
attempting to trace allocations back to even one source component would require a “tedious
manual process” and that “. . . it would not prove cost or time efficient to trace every expenditure
across DCFS back to DDS.”

We obtained data from SSA’s Office of Disability Determination summarizing more than
$4.3 billion in administrative costs SSA paid for DDS activities in all 50 States during FYs 2011

Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)            2
and 2012 (see Appendix B). Comparison of these costs indicated that LA-DDS’ indirect costs
were among the highest in the nation. LA-DDS’ indirect costs as a percentage of total
administrative costs (11.27 percent) were much higher than the national average (6.48 percent).

Narrowing the comparison to the 13 States that had total administrative costs within $20 million
of LA-DDS’ revealed that LA-DDS’ indirect costs as a percentage of total administrative costs
were more than double the average of its peers.

            Table 2: Cumulative FY 2011 and 2012 Indirect and Administrative Costs
             Reported by DDSs with Administrative Costs Comparable with LA-DDS
                          (Administrative Costs in Descending Order)
                                                                           Indirect Costs as a
                                                 Administrative Costs          Percent of
          State         Indirect Costs            (Total Obligations)     Administrative Costs
         WA                $2,697,282                  $92,708,127                2.91%
          KY               $4,127,358                  $91,571,994                4.51%
          MA               $3,065,951                  $88,800,289                3.45%
          VA               $8,795,881                  $86,633,156               10.15%
          SC               $4,959,813                  $84,744,540                5.85%
          AR                $580,458                   $83,592,146                0.69%
          MO               $2,336,853                  $81,949,371                2.85%
          OK               $5,105,564                  $76,364,991                6.69%
          AZ               $3,063,027                  $70,439,139                4.35%
          MD               $5,373,449                  $68,054,891                7.90%
          WI                $993,354                   $66,813,671                1.49%
          MS               $2,627,090                  $61,252,962                4.29%
          OR               $3,579,634                  $56,574,542                6.33%
        Average            $3,638,901                  $77,653,832                4.69%
          LA               $8,547,287                  $75,869,140               11.27%

Federal cost standards state that costs must be adequately documented 4 and chargeable or
assignable to such cost objective in accordance with relative benefit received. 5 Because
LA-DCFS’ accounting system did not allow for identification of specific amounts charged by its
various components, we could not determine whether indirect costs were charged to LA-DDS in
accordance with relative benefits received.




4
    OMB Circular A-87, Attachment A, Section C.1 (j) (Revised 5/10/04).
5
    OMB Circular A-87, Attachment A, Section C.3 (a) (Revised 5/10/04).



Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)          3
Payment of Unused Leave to Terminating Employees Charged Incorrectly
During FYs 2011 and 2012, LA-DDS incorrectly charged approximately $170,000 in lump-sum
leave paid to terminating employees in FYs 2011 and 2012 as direct administrative expense

                               Table 3: LA-DDS Lump-Sum Payments for
                                Unused Leave to Terminating Employees
            LA-DDS Lump-Sum Payments of Unused Leave to Terminating Employees
                 FY         Number of Employees            Total Payments
                2011                 20                        $123,615
                2012                  6                          $48,612
                  Total                           26                          $172,227

Federal cost standards state that payments for unused leave for employees who terminate their
employment through retirement or other separation are allowable provided they are allocated as a
general administrative expense to all activities of the governmental component. 6 Thus, these
costs were not allowable as direct expenses.

An LA-DCFS official attributed these errors to a department-wide reorganization in FY 2010.
Since the reorganization, LA-DCFS had not made the necessary adjustments to remove these
expenses from personnel costs (direct expense) and allocate them as indirect costs.

Applicant Travel
LA-DDS properly authorized and adequately supported payments to claimants for ordinary
travel expenses (mileage or public transportation fare reimbursements) incurred to attend
medical examinations or disability hearings. However, LA-DDS did not always properly
authorize or adequately support unusual travel expenses (taxi fares). Controls over authorization
and use of unusual travel expenses should ensure such costs are incurred only when necessary,
and payments for these services are valid and accurate.

                          Table 4: LA-DDS Total Applicant Travel Expenditures
                                        FY 2011 Through 2012
              Mileage or Public                                Unliquidated        Total
               Transportation             Taxi Fares           Obligations       Obligations
                  $750,506                 $237,831              $26,782         $1,015,119




6
    OMB Circular A-87, Attachment B, Section 8.d (3) (Revised 5/10/04).



Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)       4
Payments for Taxi Fares
Controls over authorization and use of taxis to transport claimants to and from medical
evaluations needed to be improved. Based on our review of 20 taxi company invoices, totaling
$21,386, for fares incurred transporting 134 claimants to and from medical evaluations, we
determined LA-DDS did not always maintain adequate documentation supporting payments to
taxi companies. We also found, in a small number of cases, LA-DDS issued erroneous or
questionable payments to taxi companies.

Lack of Required Documentation

LA-DDS did not always adequately document authorization and use of taxis to transport
claimants to and from medical evaluations.

      Use of Taxis Not Justified

SSA classifies taxi fares as “unusual travel expenses” 7 and requires that DDS personnel
determine the reasonableness and necessity of unusual travel before payment can be made. 8
DDS travel policy further requires that DDS personnel write a detailed description of why the
claimant needs taxi transportation. However, LA-DDS could not provide documentation
justifying $20,359 in taxi fares paid on 16 of 20 invoices reviewed. This occurred primarily
because DDS employees in the Shreveport, Louisiana, office did not effectively implement the
controls established in LA-DDS travel policy.

      Taxi Invoices Paid Without Required Verification

LA-DDS travel policy requires that DDS personnel obtain claimants’ signatures verifying
service completion before authorizing payment for taxi fares. LA-DDS procedures also require
that supervisors review and certify taxi invoices before paying them. However, in 15 of
134 transactions reviewed, LA-DDS paid the taxi company without obtaining the claimants’
signatures. This error occurred because DDS employees in the Shreveport, Louisiana, office did
not effectively implement the controls established in LA-DDS travel policy. Also, 1 of
20 invoices we reviewed was not signed by a supervisor before payment. We believe this error
was a management oversight.

Erroneous or Questionable Payments

LA-DDS erroneously paid a $120 taxi fare twice. In this instance, the taxi company submitted
duplicate invoices for the same service, but LA-DDS did not detect this billing error and paid
both invoices.




7
    SSA, POMS, DI 39525.001A.6 (August 28, 1996).
8
    SSA, POMS, DI 39525.005A.2.b. (June 7, 1999).



Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)        5
LA-DDS issued a questionable $300 payment to a taxi company, allegedly to transport a
claimant to a medical evaluation. According to LA-DDS records, the taxi company was
supposed to transport the claimant approximately 80 miles to and from a medical evaluation.
However, the taxi company invoice indicated the taxi transported the claimant approximately
190 miles to and from a city not associated with the medical provider. LA-DDS did not appear
to notice these discrepancies before paying the invoice. LA-DDS also paid invoices including
two transactions totaling $260 where the taxi company provided no trip details for LA-DDS staff
to use to confirm whether the services were authorized or rendered.

These discrepancies occurred because LA-DDS did not always effectively review and approve
taxi company invoices before payment.

CONCLUSIONS
We could not determine whether indirect costs were allowable or properly allocated because
LA-DCFS’ accounting system could not provide detailed information identifying specific
indirect costs it allocated to LA-DDS from its various components.

LA-DDS incorrectly charged approximately $170,000 in lump-sum leave paid to terminating
employees in FYs 2011 and 2012 as direct administrative expense.

LA-DDS properly authorized and adequately supported payments to claimants for mileage and
public transportation costs incurred to attend medical examinations or disability hearings.
However, LA-DDS did not always properly document authorization or adequately support
payment of taxi fares.

RECOMMENDATIONS
We recommend that SSA:

1. Work with LA-DCFS to either simplify its cost allocation methodology or modify its
   accounting system so it allows for identification of indirect costs allocated from each
   LA-DCFS component.

2. Ensure LA-DDS correctly charges terminal leave payments.

3. Work with LA-DDS to remind employees of proper procedures for authorizing and
   supporting unusual travel expenses and determine whether it is cost-beneficial to pursue
   recovery of questionable taxi expenses.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. See Appendix C for the text of the Agency’s comments.

LA-DCFS agreed with Recommendation 3. Also, while it concurred in-part with
Recommendation 2, its described actions taken and planned are fully responsive to the
Recommendation.

Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)     6
LA-DCFS disagreed with Recommendation 1. In its response, LA-DCFS confirmed that it could
not identify specific indirect costs it allocated to LA-DDS from its various components.
LA-DCFS acknowledged the complexity of its indirect cost allocation system and stated tracing
these costs to the applicable reporting categories was unreasonably burdensome—requiring
2,500 work hours.

While LA-DCFS offered to attempt to identify costs allocated from one reporting category for
1 month’s activity as an alternative demonstration of the accuracy of their accounting system, we
did not agree with this alternative. Even if we had agreed to undergo the tedious manual process
LA-DCFS had previously indicated would be necessary just to identify amounts it allocated for
1 month for one of its hundreds of reporting categories, such a test would not provide assurance
that indirect costs were allowable, properly allocated, or charged in accordance with the relative
benefit SSA received. See Appendix D for the full text of LA-DCFS’ comments.




Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)        7
                                       APPENDICES




Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)
Appendix A – SCOPE AND METHODOLOGY
Scope
We reviewed the indirect costs and applicant travel expenses reported by the Louisiana
Department of Children and Family Services (LA-DCFS) and its component, the Louisiana
Disability Determination Services (LA-DDS), on its State Agency Report of Obligations for SSA
Disability Programs (Form SSA-4513) for Federal Fiscal Years (FY) 2011 and 2012. For the
items tested, we reviewed LA-DCFS and LA-DDS’ compliance with applicable laws and
regulations.

To accomplish our objectives, we:

   Reviewed applicable sections of Office of Management and Budget Circular A-87, the Code
    of Federal Regulations, the Social Security Administration’s (SSA) Program Operations
    Manual System, and LA-DCFS’ indirect cost allocation plan.

   Interviewed employees from LA-DCFS and LA-DDS.

   Identified LA-DDS indirect costs claimed on Forms SSA-4513 for FYs 2011 and 2012. We
    also obtained and compared similar cost data for the rest of the 50 states.

   Attempted to identify the specific indirect costs that LA-DCFS components allocated to
    LA-DDS. LA-DCFS’ accounting records did not provide sufficient details to allow
    identification of specific amounts charged by LA-DCFS components. We subsequently
    requested LA-DCFS provide a detailed summary of costs each of its components allocated to
    LA-DDS during the audit period. However, State officials explained that LA-DCFS’
    accounting system did not allow for identification of specific amounts allocated by each
    component. Officials informed us that attempting to trace costs back to their sources would
    require a “tedious manual process” and that “. . . it would not prove cost or time efficient to
    trace every expenditure across DCFS back to DDS.” Because of this scope limitation, we
    terminated further work on this objective and disclaimed any opinion regarding the
    allowability of these costs or the propriety of their allocation.

   Obtained and reviewed LA-DDS lump-sum terminal leave payment data for FYs 2005
    through 2012.

   Reconciled applicant travel costs reported by LA-DCFS on its Form SSA-4513 for FYs 2011
    and 2012 to the related accounting records.

The electronic data used in our audit were sufficiently reliable to achieve our audit objectives.
We assessed the reliability of the electronic data by reconciling them with the costs claimed on
Forms SSA-4513. We also performed detailed testing on selected data in the electronic data
files.




Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)       A-1
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. With the exception of the scope limitation described above, we
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. We performed our audit from April through December 2013 at
the SSA regional office in Dallas, Texas.

Methodology
The sampling methodology for applicant travel expenses for FYs 2011 and 2012 encompassed
the sampling of 2 audit populations: (1) 19,237 claimant payments totaling $750,506 and
(2) 561 taxi or other fare based payments totaling $237,831.

Claimant Payments
We sampled 50 randomly selected claimant payments. For each transaction, we determined
whether LA-DDS authorized the travel in advance, maintained adequate supporting
documentation, and reimbursed claimants based on State approved mileage rates.

Taxi and Other Fare-Based Payments
We sampled 20 payments using a stratified random sample. The highest payment in the
population was $4,480, the lowest payment was $6, and the median payment was $260. We
sorted the population by payment amount and selected the 5 highest and 5 lowest payments as
well as the 10 payments closest to the median value. For each sampled payment, we determined
whether LA-DDS maintained documentation supporting trip authorization and justified use of
this method of transportation. We also determined whether mileage claimed appeared
reasonable. In addition, we verified that the DDS did not sole source the taxi fares to one
company. We reviewed available documentation and found no indication that LA-DDS sent
claimants’ personally identifiable information to taxi companies.




Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)     A-2
Appendix B – FISCAL YEAR 2011 AND 2012 DISABILITY
             DETERMINATION SERVICES PROGRAM COSTS
This table summarizes cumulative indirect and administrative costs for fiscal years 2011 and 2012, as
reported by each of the 50 State disability determination services, per SSA’s Office of Disability
Determinations National Report of Obligations for Disability Programs, DDS Summary of Quarterly
SSA-4513 Reports, 18th Month Cumulative Report.

            Indirect       Admin Costs          Indirect /                Indirect       Admin Costs          Indirect /
 State                                                         State
             Costs       (Total Obligations)   Admin Costs                 Costs       (Total Obligations)   Admin Costs
 CA        $42,413,277        $437,138,329       9.70%         DE         $3,079,201          $13,566,588      22.70%
 NY        $32,139,778        $304,108,620      10.57%         MA         $3,065,951          $88,800,289       3.45%
 TX        $26,344,070        $289,696,739       9.09%         AZ         $3,063,027          $70,439,139       4.35%
 NJ        $15,049,539        $117,035,702      12.86%         WA         $2,697,282          $92,708,127       2.91%
 OH         $9,707,644        $169,169,150       5.74%         WV         $2,654,642          $39,372,523       6.74%
 VA         $8,795,881         $86,633,156      10.15%         MS         $2,627,090          $61,252,962       4.29%
 LA         $8,547,287         $75,869,140      11.27%         NM         $2,596,837          $26,104,713       9.95%
 FL         $7,893,871        $263,025,358       3.00%         MO         $2,336,853          $81,949,371       2.85%
 GA         $7,807,119        $138,433,189       5.64%         KS         $2,168,639          $29,174,265       7.43%
 IN         $7,805,630        $101,639,763       7.68%         CO         $1,718,182          $46,090,027       3.73%
 AL         $7,712,917        $115,700,507       6.67%         HI         $1,672,539          $13,929,865      12.01%
 IL         $7,078,589        $164,522,690       4.30%         UT         $1,392,276          $24,034,767       5.79%
 TN         $6,388,985        $126,222,936       5.06%         NE         $1,114,086          $20,299,720       5.49%
 MI         $6,251,370        $164,954,501       3.79%         ME         $1,037,732          $17,046,691       6.09%
 MD         $5,373,449         $68,054,891       7.90%         WI          $993,354           $66,813,671       1.49%
 CT         $5,127,223         $44,507,630      11.52%         ID          $989,426           $16,728,433       5.91%
 OK         $5,105,564         $76,364,991       6.69%         NH          $767,055           $13,576,290       5.65%
 SC         $4,959,813         $84,744,540       5.85%         AK          $745,390            $9,366,007       7.96%
 NC         $4,504,972        $127,072,183       3.55%         RI          $680,306           $16,736,932       4.06%
 IA         $4,138,887         $47,905,441       8.64%         VT          $639,394           $10,489,115       6.10%
 KY         $4,127,358         $91,571,994       4.51%         AR          $580,458           $83,592,146       0.69%
 NV         $3,842,522         $30,091,173      12.77%         SD          $545,169            $7,386,694       7.38%
 PA         $3,681,328        $221,965,858       1.66%         ND          $519,054            $6,191,514       8.38%
 OR         $3,579,634         $56,574,542       6.33%         WY          $438,395            $5,783,896       7.58%
 MN         $3,497,833         $50,338,998       6.95%         MT          $400,598           $11,051,244       3.62%
                                                             TOTAL      $280,397,476        $4,325,827,010     6.48%




Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)                           B-1
           Appendix C – AGENCY COMMENTS




                                            SOCIAL SECURITY

MEMORANDUM


Date:      April 10, 2014
To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Sheila Everett
           Regional Commissioner
           Dallas

Subject:   Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana Disability
           Determination Services (A-06-13-13070) -- Reply

           We appreciate the opportunity to comment on this draft audit report. We agree with the
           recommendations and are working with the Louisiana Disability Determination Services (DDS),
           the Louisiana Department of Children and Family Services (DCFS), and the Department of
           Health and Human Services (HHS) to implement necessary changes. We appreciate the
           willingness of the OIG Audit staff in the Dallas Region to work with us during the course of the
           audit.

           Our responses to the recommendations contained in the narrative report are as follows:

            1. Work with LA DCFS to either simplify its cost allocation methodology or modify its
              accounting system so it allows for identification of indirect costs allocated from each LA
              DCFS component.

                 We agree that DCFS should have an accounting system with internal controls adequate to
                 protect the interests of both the State and Federal Government. We shared a draft copy of
                 this audit with HHS, the cognizant agency, and will work with HHS and DCFS to develop
                 and implement necessary changes.

            2. Ensure LA DDS correctly charges terminal leave payments.



           Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)       C-1
      We agree that terminal leave payments should be charged as part of indirect costs as
      described in OMB A87. The Louisiana DDS indirect cost charges are allocated as part of
      DCFS’ cost allocation plan, which is approved by HHS. During DCFS’ reorganization in
      FY 2010, they did not fully allocate the expenses across all other activities in the
      governmental unit. This oversight was corrected in DCFS’ December 2013, Public
      Assistance Cost Allocation Plan (PACAP) amendment submission to HHS.

      We are currently working with DCFS and HHS on FY 2011 and 2012 collections or
      reimbursements by the State to SSA and other affected Federal agencies under the
      PACAP. Because of prior guidance provided by HHS to DCFS during the FY 2005 audit
      with similar findings, we expect that HHS will instruct DCFS that the terminal leave
      charges are non-refundable for retroactive years.

 3.Work with the LA DDS to remind employees of proper procedures for authorizing and
   supporting unusual travel expenses and determine whether it is cost-beneficial to pursue
   recovery of questionable taxi expenses.

       We concur. The DDS has reviewed and strengthened their applicant travel authorization
       process. They will provide refresher training for their examiner and supervisor staff. We
       do not believe that it is cost-beneficial to pursue recovery of the questionable taxi
       expenses.

If you would like to discuss this further, please call me. If members of your staff have any
questions, please have them call Roberta Irwin at 214-767-0633 in Management and Operations
Support, Center for Disability.




Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)     C-2
Appendix D – LOUISIANA DEPARTMENT OF CHILDREN AND
             FAMILY SERVICES COMMENTS




Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)   D-1
Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)   D-2
Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)   D-3
Appendix E – MAJOR CONTRIBUTORS
Ron Gunia, Director

Jason Arrington, Audit Manager

Neha Smith, Audit Manager

Warren Wasson, Senior Auditor

Teresa Williams, Senior Auditor




Indirect Costs and Applicant Travel Expenses Claimed by the Louisiana DDS (A-06-13-13070)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.

                                    CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.

   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
                                                     Watch us on YouTube
   •   Semiannual Reports to Congress
   •   fraud advisories                              Like us on Facebook

   •   press releases                                Follow us on Twitter
   •   congressional testimony
                                                     Subscribe to our RSS feeds or email updates
   •   an interactive blog, “Beyond The
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website
at http://oig.ssa.gov/audits-and-investigations/audit-reports/all. For notification of newly
released reports, sign up for e-updates at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
